TN

COCKLE

Le ga l Bri e fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-571
INTEL CORP., et al.,
Petitioners,
v.
CONTINENTAL CIRCUITS LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
COMPUTER & COMMUNICATIONS INDUSTRY ASSOCIATION AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3836 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le 4
My Commission Expires Nov 24, 2020 €

Notary Public Affiant 38805

 

 
